No. __________

In the
Supreme Court of the United States
ATORBE AARON ISIBOR,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Motion for Leave to Proceed In Forma Pauperis

CUAUHTEMOC ORTEGA
Interim Federal Public Defender
SONAM HENDERSON *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-5308
Fax: 213-894-0081
Email: Sonam_Henderson@fd.org
Attorneys for Petitioner
*
Counsel of Record

Petitioner, by his undersigned counsel, asks leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Ninth Circuit without prepayment of
costs and to proceed in forma pauperis. The petitioner was represented by counsel appointed in
the district court under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b). This motion is brought
pursuant to Sup. Ct. R. 39.1.

August 21, 2020

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

SONAM HENDERSON *
Deputy Federal Public Defender
Attorneys for Petitioner
*
Counsel of Record

2

